<html>
<title> - IMPLEMENTATION OF THE NATIONAL DEFENSE STRATEGY IN THE UNITED STATES SOUTHERN COMMAND AREA OF RESPONSIBILITY</title>
<body><pre>[Senate Hearing 116-261]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-261
 
                 IMPLEMENTATION OF THE NATIONAL DEFENSE
                 STRATEGY IN THE UNITED STATES SOUTHERN
                     COMMAND AREA OF RESPONSIBILITY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2019

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         




                  Available via http://www.govinfo.gov
                  
                            ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
41-306 PDF               WASHINGTON : 2020 
                   
                  
                  


                      COMMITTEE ON ARMED SERVICES

                   JAMES M. INHOFE, Oklahoma, 
                            Chairman
             
ROGER F. WICKER, Mississippi         JACK REED, Rhode Island
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina          TIM KAINE, Virginia
DAN SULLIVAN, Alaska                 ANGUS S. KING, Jr., Maine
DAVID PERDUE, Georgia                MARTIN HEINRICH, New Mexico
KEVIN CRAMER, North Dakota           ELIZABETH WARREN, Massachusetts
MARTHA McSALLY, Arizona              GARY C. PETERS, Michigan
RICK SCOTT, Florida                  JOE MANCHIN, West Virginia
MARSHA BLACKBURN, Tennessee          TAMMY DUCKWORTH, Illinois
JOSH HAWLEY, Missouri                DOUG JONES, Alabama
             
                                     
                      John Bonsell, Staff Director
                   Elizabeth L. King, Minority Staff 
                                Director



           Subcommittee on Emerging Threats and Capabilities

                      JONI ERNST, Iowa, Chairman
                      
DEB FISCHER, Nebraska               GARY C. PETERS, Michigan
KEVIN CRAMER, North Dakota          JEANNE SHAHEEN, New Hampshire
MARSHA BLACKBURN, Tennessee         MARTIN HEINRICH, New Mexico
JOSH HAWLEY, Missouri               MAZIE K. HIRONO, Hawaii
                                     
                                     
                                     

                                  (ii)

  


                             C O N T E N T S



                              July 9, 2019

                                                                   Page

Implementation of the National Defense Strategy in the United         1
  States Southern Command Area of Responsibility.

Faller, Admiral Craig S., USN, Commander, United States Southern      4
  Command.

                                 (iii)


                     IMPLEMENTATION OF THE NATIONAL

                     DEFENSE STRATEGY IN THE UNITED

                      STATES SOUTHERN COMMAND AREA

                           OF RESPONSIBILITY

                              ----------                              


                         TUESDAY, JULY 9, 2019

                  United States Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:00 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Joni Ernst 
(chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Ernst, Fischer, 
Hawley, Peters, Shaheen, and Hirono.

            OPENING STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Welcome, everybody.
    The Emerging Threats and Capabilities Subcommittee meets 
today to receive testimony from Admiral Craig Faller, Commander 
of U.S. Southern Command or, as we call it, SOUTHCOM.
    Our focus will be on the evolving security situation in 
this theater, as well as SOUTHCOM's efforts to implement the 
National Defense Strategy (NDS).
    Welcome to the Admiral. Thank you very much for being here, 
sir. I certainly appreciate it.
    Today's hearing is a continuation of the subcommittee's 
efforts to provide oversight over National Defense Strategy 
implementation. This is an important component of our efforts 
to ensure our military is appropriately resourced, equipped, 
and postured to defend the nation against a growing array of 
threats.
    While much attention has been on countering China and 
Russia in their traditional spheres of influence in Europe and 
across the Indo-Pacific region, the subcommittee has been 
particularly focused on how those nations are increasingly 
challenging U.S. national security interests not just within 
their own geographic boundaries but elsewhere around the world.
    Last year, the subcommittee held a hearing with leading 
experts to discuss China's expanding presence in Africa and the 
implications for our interests and those of our partners. It 
was made clear during the hearing that China is undertaking a 
comprehensive and long-term approach to bolstering its global 
access and influence, oftentimes with the goal of undermining 
the United States of America.
    The situation in the western hemisphere is no different. 
Admiral Faller, you highlighted in testimony earlier this year 
that China has accelerated expansion of its Belt and Road 
Initiative (BRI) in the western hemisphere at a pace that may 
one day overshadow its expansion in Southeast Asia and Africa.
    China's strategic engagement in the SOUTHCOM region 
bolsters China's geopolitical network at the expense of United 
States security interests and regional stability. China's 
efforts to back oppressive governments such as the Maduro 
regime in Venezuela and to pump loans into local economies at 
unpayable interest rates reveal China's interest in spreading 
influence and consolidating power.
    As a result, Latin America has become a fixture for China's 
ambitions, utilizing economic coercion to grow support for 
Chinese foreign policy objectives including the isolation of 
Taiwan and the exclusion of the United States and Canada from 
regional discourse. Trade and economic ties between the United 
States and Latin America are changing with China recently 
surpassing the United States as the main destination for 
exports from several Latin American countries.
    China is also deepening military and technological ties in 
the region. For example, we have seen deepened space-related 
cooperation in Brazil, Venezuela, and Argentina. China has 
increased arms sales in a manner that violates United States 
and EU [European Union] restrictions and hinders our ability to 
integrate with our strategic partners.
    Meanwhile, Russia is also working to expand its influence 
in region. The Putin regime seeks to erode United States 
influence in the SOUTHCOM area of responsibility and has 
doubled down on its efforts to prop up corrupt authoritarian 
regimes in Venezuela, Cuba, and Nicaragua through economic and 
military assistance. For many years, Putin has viewed Latin 
America as the natural link in the chain making up a multi-
polar world, and recent port visits by Russian navy vessels and 
the deployment of a long-range bomber to the region highlight 
Russia's efforts to strengthen its global reach in the new age 
of great power competition. In fact, just a couple weeks ago, 
the Admiral Gorshkov, one of Russia's most advanced warships, 
was docked in Havana Harbor.
    Finally, drivers of migration, including violence, 
corruption, and poverty, place a significant strain on regional 
governments and can engender regional instability, impacting 
not only the southern border of the United States but providing 
additional flashpoints for China and Russia to exploit at the 
expense of American soft power.
    All of this demonstrates clearly that the western 
hemisphere should be viewed as an important front in our 
efforts to compete with China and Russia and implement the NDS.
    I look forward to your input and your candid assessment of 
the evolving security dynamics in this region, describing how 
the NDS information is important, and how you will allocate 
SOUTHCOM's limited resources, as well as identify any 
challenges that may impair your ability to accomplish your 
mission.
    Thank you again, Admiral, for joining us today, and I look 
forward to discussion.
    I will now turn it over to Senator Peters, our ranking 
member, for your opening statement.

              STATEMENT OF SENATOR GARY C. PETERS

    Senator Peters. Well, thank you, Madam Chair, and thank you 
for holding this hearing at a very critical time.
    Events in Latin America are often overshadowed by the 
crisis in the Middle East and Asia, but stability in the 
SOUTHCOM AOR [Area of Responsibility] is clearly critical to 
our national security.
    I want to thank our witness, Admiral Faller, for his 
service and for appearing here today to testify on the 
implementation of the National Defense Strategy in the Southern 
Command area of responsibility.
    It is clear that Russia and China have significantly 
increased their presence and their influence in the SOUTHCOM 
AOR. Chinese investment has reached unprecedented levels, and 
Beijing has invested billions of dollars in Latin America as 
part of its Belt and Road Initiative. China often engages in 
predatory lending practices that create debt traps for small 
countries and allow Beijing to yield outsized influence in 
these countries. The projects are often economically 
unsustainable, and many countries throughout the world have 
found themselves billions of dollars in debt with no way to 
repay Beijing.
    Russia's economic influence in Latin America is much 
smaller than China's, but its intentions are much more 
pernicious. Russia's propaganda machine has been active in 
Latin America with efforts to raise doubts about the democratic 
process and to sow discord in the region. Russia's state-
controlled Spanish language television station spreads 
misinformation throughout the region and seeks to undermine 
United States influence in the region.
    Russia has also used cyber attacks to attack democratic 
institutions. The Center for Strategic and International 
Studies reported, for example, that there have been 50,000 
cyber attacks against Colombia's national voter registry during 
the 2018 legislative elections.
    We have also seen Russia covertly deploy Kremlin-linked 
paramilitary groups to Latin America, repeating the pattern of 
using these forces to advance their strategic interest abroad 
without having to admit that they have deployed any military 
personnel to a specific country.
    Russia's intervention in Venezuela has propped up the 
disastrous Maduro regime and helped deny the transition to 
power of interim President Guaido. This fits a pattern of an 
increasingly aggressive Russia seeking to use all of the tools 
in its playbook to undermine the appeal of the democratic 
process and keep Russian aligned regimes in power.
    While Russian and Chinese influence in Latin America is 
destabilizing to the region, I think it is also important to 
spend a few minutes on the most pressing threat to democracy in 
the western hemisphere, and that is corruption. Corruption is 
the root cause of mass migration, instability, and impunity in 
Central America and the trafficking of illicit narcotics into 
our country. Unless our strategy focuses on solving the root 
causes of corruption, then no amount of security assistance 
dollars to Latin American partners will be effective.
    That is why I am quite concerned that the Trump 
administration has recently decided to cut off all non-defense 
USAID [United States Agency for International Development] and 
State assistance to Guatemala, Honduras, and El Salvador, while 
allowing defense assistance to these countries to continue. 
President Trump's stated rationale to punish these countries 
for the migrant crisis is ill-considered and totally 
counterproductive to reducing forced migration numbers. 
Ultimately it undermines our national security in the region. 
Unless we support civil societies in these countries and help 
improve the economic conditions, we will never get a handle on 
the illicit drugs that flow through these Northern Triangle 
countries and into the United States.
    One final note I think is critical for us to discuss is 
that corruption in Central and South America not only 
destabilizes the region, but it also provides China and Russia 
with a foothold into these countries as well. Corrupt 
governments are more likely to take loans from China that allow 
them to skim millions off the top and leave their treasuries 
empty. Russia is able to sell arms to corrupt governments that 
oppress their civilian populations and violate their human 
rights. The more we focus on combating corruption, the more 
successful we will be in implementing the National Defense 
Strategy in the region.
    I thank the chair again for holding this hearing, and I 
look forward to the discussion.
    Senator Ernst. Thank you, Ranking Member Peters. Thank you 
for those opening comments.
    Admiral Faller, we will go ahead and start with your 
opening statement, and then we will move into questioning. 
Thank you.

 STATEMENT OF ADMIRAL CRAIG S. FALLER, USN, COMMANDER, UNITED 
                    STATES SOUTHERN COMMAND

    Admiral Faller. Chairman Ernst, Ranking Member Peters, 
Senators, thank you for the opportunity to testify before you 
today and for the steadfast support you provide the men and 
women of the United States Southern Command day in and day out.
    I would like to introduce my command's senior enlisted, 
Sergeant Major Brian Zickefoose, my eyes and ears, who is here 
with me today. He is also unabashedly from the great State of 
Iowa.
    As I mentioned in my written statement, I have been in 
command of SOUTHCOM for 7 months. In that time, I have traveled 
extensively throughout Central America, South America, and the 
Caribbean to get a firsthand view of the opportunities and 
challenges that you both illuminated. These opportunities and 
challenges directly impact the security of this hemisphere, our 
neighborhood. Criminal organizations, narcotrafficking, illegal 
immigration, violent extremists, corruption, all enabled by 
weak governance are principal among those challenges.
    The most disturbing insight, the aha for me, however, has 
been the degree to which the external state actors China, 
Russia, and Iran have expanded their access and influence right 
here in our neighborhood or, as General Neller put it, inside 
our interior lines.
    The National Defense Strategy makes clear great power 
competition has reemerged as the number one security challenge 
facing our nation. China, Russia, and others want to shape a 
world consistent with their authoritarian models. They are 
blurring the lines of what constitutes a military threat 
through economic coercion, the systematic stealing of 
technology, influence campaigns, and malicious cyber activity. 
They are contesting our military advantage in all the 
traditional domains we fight around the globe: land, air, sea, 
space, cyber, and information, plus one more very important 
domain, values like democracy, sovereignty, the rule of law and 
human rights. Competition is happening globally and right here 
in our neighborhood, the western hemisphere.
    We see this most acutely in Venezuela where the security 
crisis created by Maduro has compounded every single security 
crisis we face in this hemisphere, where Russia in their own 
words is protecting their loyal friend, to quote, by propping 
up the corrupt, illegitimate Maduro regime with loans and 
technical and military support, where China, as Venezuela's 
largest single state creditor, saddled the Venezuelan people 
with more than $60 billion in debt and is exporting 
surveillance technology used to monitor and repress the 
Venezuelan people. Iran has restarted direct flights from 
Tehran to Caracas and reinvigorated diplomatic ties. Along with 
Cuba, these actors engage in activities that are profoundly 
unhelpful for democracy and regional stability and counter to 
United States interests.
    How do we counter the threats and seize the opportunities 
in this hemisphere? How do we counter the threats posed by 
external state actors in Venezuela and across the region?
    The best way to out-compete is by focusing our strengths, 
the strong, enduring ties we have with our neighbors, and from 
a defense perspective, these strong mil-to-mil relations are 
grounded in shared professionalism. We work with each other 
from a foundation of mutual respect, human rights, and shared 
interests in regional cooperation and interoperability. We 
reinforce and build on this through training, education, 
intelligence, and information sharing and exercises. Security 
cooperation is our best tool to continue building these strong 
partnerships and turn the challenges of our hemisphere into 
opportunities. Working together, training, and exercising 
shoulder to shoulder with American military professionals is 
our competitive edge, and no one can match our system.
    We also need the right, focused, and consistent military 
presence day in and day out to go along with this training and 
education. We cannot achieve positive results and influence 
outcomes without being on the playing field. I will point to 
two examples of the positive impact of our presence, happening 
as I speak.
    Our strategic bomber force and F-16 fighter aircraft from 
the South Carolina Air National Guard are training with the 
very capable Colombian Air Force. This mission takes place in 
conjunction with the 100th anniversary of Colombia's Air Force 
and builds interoperability and readiness for the United States 
and for our very capable Colombian partners while also 
demonstrating our shared resolve in the face of regional and 
global challenges.
    Nearby, the United States naval ship Comfort is in Lima, 
Peru to help our neighbors impacted by the manmade crisis in 
Venezuela. Comfort shows the very best of the United States of 
America and the strong partnerships we have in the world. It is 
part of our enduring promise to our neighbors in this 
hemisphere to be a steadfast, reliable, and trusted partner.
    We appreciate the continued support of Congress and this 
committee in helping us fulfill that promise. The SOUTHCOM 
team, our military and civilian members and our families 
appreciate the support of Congress and we will continue to 
honor the trust you placed in us and the trust our fellow 
citizens have placed in us.
    I look forward to your questions. Thank you very much.
    [The prepared statement of Admiral Faller follows:]

             Prepared Statement by Admiral Craig S. Faller
    Chairwoman Ernst, Ranking Member Peters: thank you for the 
opportunity to appear before you today. I have been in command of U.S. 
Southern Command (USSOUTHCOM) for nearly seven months. In that time I 
have traveled frequently throughout our area of responsibility, meeting 
with counterparts and learning about this vital, dynamic part of the 
world--our neighborhood, the Western Hemisphere.
    I've been inspired by the many strengths and opportunities of our 
hemisphere: our cultural and economic ties are historic and enduring. 
Our relationships are firmly rooted in common interests and the shared 
values of democracy, sovereignty, human rights, and rule of law. The 
most disturbing insight, however, has been the degree to which External 
State Actors (ESAs)--China, Russia, and to a lesser extent, Iran, and 
North Korea--have expanded their access and influence in our 
neighborhood. Each actor engages in a wide array of concerning, 
potentially destabilizing activities, blurring the lines of what 
constitutes a traditional ``military threat'' through economic 
coercion, the systematic stealing of technology, pernicious 
disinformation campaigns, and malicious cyber activity. With every 
inroad they make, they gain additional opportunities to interfere with 
our security relationships, undermine our efforts to reinforce 
international norms, and potentially hold our interests at risk.
    As the National Defense Strategy recognizes, the principal problem 
facing the Department of Defense is interstate strategic competition 
with China and Russia. I believe an important element of this involves 
competition for values, ideas, and ideals. In Latin America and the 
Caribbean, this competition is also taking place in parallel with 
another competition: one between legitimate governance and illegitimate 
power wielded by transnational criminal organizations and violent 
extremist organizations. These groups threaten citizen safety, regional 
security, and the national security of the United States and our allies 
and partners. This region is the largest source of illicit drugs and 
illegal migrants to the United States. Rule of law is under constant 
assault by illicit networks that engage in bribery, coercion, and 
violence that disrupt legitimate economic opportunities. Their illegal 
activities in turn provide fertile ground for ESAs--particularly China 
and Russia--who capitalize on the opportunities provided by weak 
institutions and corruption to expand their influence. We see this most 
acutely in Venezuela, where Russia contributes to propping up the 
corrupt Maduro regime in return for increased access and leverage, but 
this practice is widespread. Enormous sums of Chinese cash, coupled 
with murky conditions on loans and business deals, have the potential 
to exacerbate the region's corruption problem.
    Where threats are transregional, multi-domain, and global--like 
ESAs--the United States must renew focus on our neighbors and our 
shared Western Hemisphere neighborhood. Our strong partnerships, rooted 
in shared values, provide us with an advantage that no competitor can 
match. Continuing to increase security and stability in this hemisphere 
will expand opportunities for legitimate trade and investment for the 
United States and our allies and partners. Working with our partners to 
address shared challenges and threats--including weak governance, 
corruption, transnational criminal organizations, and the flow of 
illicit drugs--not only increases the security of our homeland, it 
decreases the ability of malign actors to exploit this region at the 
expense of our shared interests.
    I look forward to discussing the nature of ESA activity in detail, 
how we're working with partners to address them, and what we need to 
maintain our competitive edge.
                                 china
    China poses a significant long-term threat. While the military 
problems it poses are most acute in the Indo-Pacific region, China has 
nonetheless turned its attention to the Western Hemisphere, quietly 
accumulating unprecedented levels of influence and leverage. China is 
now inside our own neighborhood seeking to displace the United States 
as the partner of choice and weaken the commitment of our partners to 
the rule of law and democracy.
    Economic engagement. China's increasing access is enabled by 
economics. As in other parts of the world, China is adept at leveraging 
its economic instruments of power to achieve its strategic interests, 
often in ways that can undermine the autonomy of countries: corrupt 
practices, non-transparent and excessive loans, restrictions on market 
economies, and potential loss of control of natural resources. China's 
aim is to become the region's largest investor and creditor. China 
plans to increase trade with the region to $500 billion by 2025. With 
19 nations in the region now participating in the One Belt One Road 
Initiative and pledges of at least $150 billion in loans, Beijing is 
translating this economic heft into political influence. It is the 
single largest creditor of the Maduro regime, saddling the Venezuelan 
people with more than $60 billion in debt and providing financial 
lifelines that have helped keep Maduro in power.
    Access. On the maritime front, China has significantly increased 
its naval deployments to the region, increasing its regional port calls 
by 70% over the last five years. Chinese companies currently have over 
50 active port projects in the hemisphere, and planned investments will 
more than double the amount of ports where China has a presence. In the 
future, China could use its control of deep water ports in the Western 
Hemisphere to support global military deployments. Particularly 
concerning is China's effort to court Panama and exert control over key 
infrastructure associated with the Panama Canal. Hong Kong-based 
company Hutchison Whampoa operates ports on either end of the Panama 
Canal, and the Chinese government has aggressively invested in Panama's 
infrastructure, security, and telecommunications systems. China 
recently completed three infrastructure projects valued at $1 billion, 
and is slated to complete five more projects this year worth over $2.5 
billion.
    Data protection. China's telecommunications investments and access 
to space tracking facilities in the hemisphere place military 
operations, intellectual property, and private data at risk. Chinese 
firms like Huawei and ZTE have aggressively penetrated the region with 
telecommunication projects in 16 countries, providing the backbone of 
commercial and government communication systems for most of the region. 
As we've seen elsewhere, Huawei's 5G systems presents significant 
national security concerns. Because of the intimate relationship 
between Chinese businesses and China's National Intelligence Law, \1\ 
we have significant concerns that any data transiting China or 
processed by Chinese companies is at risk to access by the Chinese 
government. If governments in Latin America and the Caribbean continue 
to gravitate toward using Chinese information systems, our ability and 
willingness to share information over compromised networks is likely to 
suffer.
---------------------------------------------------------------------------
    \1\ China's National Intelligence Law provides that ``any 
organization or citizen shall support, assist, and cooperate with state 
intelligence work in accordance with the law, and maintain the secrecy 
of all knowledge of national intelligence work.''
---------------------------------------------------------------------------
    Surveillance technology and authoritarian systems. China is also 
increasing sales of its surveillance technology through its ``Smart and 
Safe Cities'' initiative. What seems like a good idea--technology to 
help improve safety in crime-ridden areas, for example--may come with 
substantial hidden costs. Citizens living in democracies in the Western 
Hemisphere could potentially have their entire digital identity under 
the surveillance of an authoritarian government. Beijing has a long 
track record of controlling information and suppressing dissent within 
China, and is now exporting these tools to the region's authoritarian 
leaders, as we've seen in Venezuela with the new ``fatherland'' card--
created by ZTE--that Maduro uses to monitor citizens and dole out scant 
resources to his loyalists. \2\
---------------------------------------------------------------------------
    \2\ Assistant Secretary of State Kimberly Brier, Remarks on China's 
New Road in the Americas: Beyond Silk & Silver, April 26, 2019.
---------------------------------------------------------------------------
    Security cooperation. China uses weapons sales and donations and 
security services' training (similar to our IMET program) to improve 
security cooperation and offer an alternative to U.S. military 
training. It has donated equipment to our partners in the region and 
provided anti-riot gear the Maduro regime uses to suppress protests in 
Venezuela. Additionally, China's ``no strings attached'' approach to 
security cooperation and economic relationships presents a challenge to 
Inter-American values of democracy, sovereignty, human rights, and the 
rule of law. Unlike the United States and our allies, the Chinese 
government places no demands on their partners to implement governance 
reforms, protect human rights, strengthen institutional accountability, 
or play by the established rules. China has zero interest in advancing 
these values; instead, it often attempts to undermine them as part of 
its long-term strategic goals that include support in international 
fora and access to mineral wealth.
      Sovereignty threats. China undercuts regional sovereignty and 
international norms through the widespread practice of illegal fishing 
in the exclusive economic zones (EEZs) of countries such as Argentina, 
Ecuador, and Chile. When our partners have attempted to enforce rule of 
law, Chinese flagged vessels have responded aggressively, endangering 
the lives of sailors and coast guardsmen in the region. Although it has 
pledged to designate all variants of fentanyl controlled substances, 
China's capacity and will to stop illicit shipments has been uneven. 
The vast majority of fentanyl flowing into the United States still 
originates in China, with many of the precursor chemicals needed to 
produce fentanyl illegally trafficked into Mexico, Central America, and 
the Caribbean via regional drug dealers and corrupt Chinese 
businessmen.
                                 russia
    In contrast to China's long-term strategic approach, Russia seeks 
to be more of a ``spoiler'' in the region by attempting to disrupt or 
undermine U.S. engagement. Russia seeks to sow disunity and distrust, 
propping up autocratic regimes in Cuba, Bolivia, Venezuela, and 
Nicaragua, which are counter to democracy and U.S. interests.
    Disinformation. Moscow continues to use Latin America and the 
Caribbean to spread disinformation. As we've seen elsewhere in the 
world, Russia floods the internet, social media, and television outlets 
with original and reproduced propaganda, using RT-TV and Sputnik Mundo 
to employ a ``fog of falsehood'' designed to disorient audiences. These 
state-run media outlets allow Russia to discredit, slant, or outright 
fabricate stories about the United States, our partners and allies, and 
our role in the region. Russia also supports it authoritarian cronies 
through propaganda and other information-related tools, providing 
positive media coverage of its autocratic allies, papering over 
repression and socioeconomic inequity in Venezuela, Cuba, and 
Nicaragua.
    Shows-of-force. Russia's deployment of two nuclear capable bombers 
to the Western Hemisphere last year, and its most recent deployment of 
its most advanced warship (an ADM GORSHKOV-class frigate) are intended 
as shows of force to the United States. While aimed at us and the 
region, this message is also aimed at Russia's domestic audience, as 
part of a broader effort to distract from internal issues and endemic 
corruption. In addition to its regular deployment of intelligence 
collection ships, Russia has also deployed underwater research ships to 
Latin America capable of mapping undersea cables--information it could 
use to cut critical lines of communication during a future crisis.
    Security cooperation. Latin America and the Caribbean is a major 
market for Russian arms sales, and Moscow continues to make inroads 
into traditionally US-dominated training activities. Since 2009, Russia 
has sold nearly $9 billion in military equipment to Venezuela, 
including combat aircraft, tanks and Surface-to-Air-Missile systems 
(SAMS). In March, Russia inaugurated a helicopter training center that 
can train up to 300 Venezuelans on Russian-made aircraft, allowing the 
Venezuelan military to increase its combat readiness. Since 2012, 
security officials from nearly all Central and South American countries 
have received Russian CN training. These engagements, combined with 
Russia's Counter Transnational Organized Crime Training Center (CTOC) 
in Nicaragua, potentially provide Moscow with a regional platform to 
recruit intelligence sources and collect information.
    Support to authoritarianism. Russia uses the sanctuary of its 
robust relationships with traditional allies--Cuba, Nicaragua, and 
Venezuela--to gain a foothold close to our homeland, and enable 
destabilizing activities by like-minded, authoritarian governments. 
Russia has successfully pursued simplified port access agreements in 
Nicaragua, and is establishing joint space projects with partners in 
the region, such as Cuba, which it could eventually leverage for 
counter-space purposes in the event of a global conflict. The Cubans 
and the Russians remain the main foreign supporters of the Maduro 
regime, with both malign actors providing security advisers and Cuba 
embedding numerous personnel in Venezuela's armed forces and 
intelligence services. As tensions increase with Russia in Europe, 
Moscow may leverage these longstanding partnerships to maintain 
asymmetric options, including forward deploying military personnel or 
assets.
                                 iran.
    Iran remains the most significant state sponsor of terrorism around 
the world. Iran has looked to reenergize its outreach in Latin America 
and the Caribbean in recent years. The Iranian Threat Network, to 
include Lebanese Hezbollah, maintains an established logistical, 
facilitating, fundraising and operational presence in this region that 
can be quickly leveraged with little or no warning in a contingency. 
Many of these Hezbollah networks cache weapons and raise funds, often 
via charitable donations, remittances, and sometimes through illicit 
means, such as unsanctioned drug trafficking and money laundering. Last 
September, Brazil arrested a Hezbollah financier in the tri-border area 
near Paraguay and Argentina, and in recent years Paraguay, Peru, and 
Bolivia have arrested multiple Hezbollah-linked suspects. Having a 
footprint in the region also allows Iran to collect intelligence and 
conduct contingency planning for possible retaliatory attacks against 
U.S. or Western interests.
                              north korea
    Although not as significant a threat as other ESAs, we remain 
concerned that Pyongyang could use its small presence in the region to 
collect intelligence or conduct contingency planning. Given its efforts 
to generate revenue and history of working with supporters like Cuba to 
circumvent sanctions, North Korea is likely engaged in some form of 
illicit activity in Latin America.
    Outcompeting ESAs. Outcompeting China and countering other ESAs 
requires a whole-of-government approach, of which the military plays a 
small but important role. Strong partnerships--enabled by engagements 
and presence, intelligence and information exchanges, and education and 
training--are our primary bulwark against the influence of malign 
actors in the hemisphere and are bolstered by our work together on 
military professionalism.
    Engagements and presence. We have to be on the playing field to 
compete. The same presence that strengthens our partnerships sends a 
powerful signal to Russia, China, and others that the United States is 
committed to the region and to the security of our neighborhood. Key 
leader engagements, high-profile visits, multinational exercises with 
visible U.S. presence, and our wide array of security cooperation, 
training, and capacity-building demonstrate meaningful U.S. commitment. 
We appreciate efforts by the Congress to recognize the need for 
consistent presence and focused attention on this hemisphere. In recent 
years, Congress has generously provided funding for additional air and 
maritime platforms, as well as intelligence capabilities that enable 
USSOUTHCOM to strengthen our partnerships throughout the region. During 
my recent posture hearings before the Senate and House Armed Services 
Committees, I witnessed bipartisan support for reinvigorating our 
relationships within our neighborhood and USSOUTHCOM is postured to 
work side-by-side with our partners to advance the security of this 
hemisphere against all competitors.
    Information & intelligence sharing. For our part, we are increasing 
cooperation with partners to better understand, expose, and counter the 
malign activities of Russia, China, Iran, and their authoritarian 
allies. We are also working more closely with other U.S. combatant 
commands and the Joint Staff to ensure that globally integrated plans 
and operations are informed by threats and opportunities in this 
hemisphere, as well as continuously improving the quality, frequency, 
and depth of our intelligence exchanges.
    Education and training. Additionally, our work with partners to 
reinforce the hemisphere's substantial, but incomplete, progress in 
human rights is even more critical in light of Russia and China's own 
disregard for human rights. USSOUTHCOM's Human Rights Initiative--which 
just celebrated its 20th anniversary--has conducted more than 200 human 
rights engagements that have enhanced the ability of partner nations to 
build professional forces that have legitimacy in the eyes of their 
populations.
    As I have discussed in previous testimony, the Department of 
State's security assistance programs--like International Military 
Education and Training (IMET) and Foreign Military Financing (FMF)--are 
strategic game changers. Education and training for partner nation 
personnel facilitate mutual understanding of our values, doctrine, and 
cultures, while building life-long friendships that enable strong 
partnerships despite political shifts or changeovers. This 
understanding allows us to operate with our partners more effectively, 
while strengthening shared values. Since 2009, IMET has provided 
opportunities for over 55,000 students from the region to attend 
schools like the Western Hemisphere Institute for Security Cooperation 
(WHINSEC), the Inter-American Air Force Academy (IAAFA), and the Inter-
American Defense College (IADC). While China and Russia have made 
inroads in equipment sales, our partners still prefer United States 
equipment, which offers the ``total package'' approach that includes 
training, maintenance, and sustainment. Just like U.S. military-to-
military partnerships, U.S. equipment is built to last. We also 
appreciate the support of Congress on our security cooperation programs 
that enable us to build these partnerships.
                              conclusion.
    Chairwoman Ernst, Members: I'll end with a final observation. 
External State Actors offer the region many things (not all of them 
benign), but the United States takes on the hard challenges--helping 
our partners develop leaders, agencies, and institutions. Our partners 
in the region want to work with us, train with us, learn from us, and 
fight alongside us. They share our vision of a safe, prosperous, and 
secure neighborhood. The right, focused and modest investments in this 
hemisphere yield a solid rate of return for the United States, in the 
form of capable partners that contribute to our shared security, and 
reduced opportunities for inroads by External State Actors. Thank you.

    Senator Ernst. Thank you very much, Admiral.
    What we will do, I will go ahead and start with just a 
couple questions, and we will go back and forth in order of 
arrival. With that, we will go ahead and get started. Feel free 
to take as much time as necessary, Admiral, to discuss the 
challenges and opportunities that you have in SOUTHCOM.
    Just to start, sir, the National Defense Strategy clearly 
identifies great power competition between the United States 
and, of course, China and Russia as the most pressing threat to 
national security. Given their expanding presence in your AO 
[area of operations], the NDS has particular relevance to your 
area of responsibility. If you could, explain what is the role 
of the United States military as we are competing with China 
and Russia in the western hemisphere. What more can we be 
doing?
    Admiral Faller. Our focus is to build strong partnerships. 
Twentyseven of 31 nations are democracies. We focus on 
partnerships. That is the best way to out-compete China. Our 
partners want to work with us. They want the advantage of 
United States education, training, and exercises and military 
equipment. It is the best in the world. It is up to us to 
deliver that in a way that is relevant and also provides a 
return on investment for American taxpayers. That is our focus.
    Colombia and Brazil are two very good examples where we 
spend a lot of time. We have traveled to Colombia on multiple 
occasions. We have been to Brazil. Their chiefs of defense have 
been to see us. It begins with intelligence sharing and 
education, frankly, at a person-to-person level and a mil-to-
mil level. We enhance each other's situational awareness, 
strengthen our understanding of the opportunities and 
challenges, and work on education both in their schools and in 
ours. I have had the opportunity to go down and speak at their 
institutions. That is the foundation.
    That counters Russia and China best because frankly they 
cannot compete with our system. They are trying. They are in 
the area. Everywhere I go, the chiefs of defense say the 
Chinese have come. They have offered us free education, 
unlimited travel, an opportunity to go to their schools. They 
have taken and replicated our model. They have stood up Spanish 
language training in Beijing. The message I get from our 
capable partners is we do not want to train with them. We want 
to continue.
    The best way is to be consistent to offer the level of 
service and demand that the partners can meet. We operate at 
their speed and then also ensure that there is something that 
we give back. When you meet a new chief of defense, for 
example, the new chief of defense in El Salvador and the new 
minister of defense in El Salvador, both graduates of United 
States service schools--in fact, the chief of defense I think 
has been to five United States schools, and the minister of 
defense graduated the Naval War College in Newport. They are 
committed to working with us, not with others, and that is the 
way we move forward in a real meaningful way, Senator.
    Senator Ernst. Thank you very much.
    Just to go a little bit further with that, I do firmly 
believe in those mil-to-mil opportunities, whether through 
training, exercises, or through educational opportunities.
    Now, maybe you can expand a little bit on the lack of 
opportunity that we have been able to extend to other military 
members in attending our military schools. If you could talk a 
little bit about what some of those challenges are, whether it 
is funding or otherwise, it would be good to hear about that.
    Admiral Faller. The opportunity to expand our offerings of 
education in our military schools and training in our schools--
and there is a difference, but both to get after technical 
schools and the some of the professional military--is the 
single best investment we can make long-term to our 
partnerships. Graduates of our school systems go back with an 
understanding of U.S. doctrine, U.S. tactics, techniques, and 
really become lifelong friends. The chief of defense in 
Argentina, for example, is an honor grad of the Army War 
College and very proud of it and was just admitted into the 
Army War College Hall of Fame. That fact is known by the 
political leadership in Argentina and it is valued. I find him 
to be one of my best generals. He has also been one of my best 
strategic partners.
    The principal source of funding for education comes from 
the International Military Education Training, IMET, account. 
It is State Department-funded that has basically been flat-
lined as long back as I can do the math. Then your dollars, in 
current year dollars, of flat accounts, get us less school 
seats over time because the schools cost more than what we are 
able to contribute within the rules.
    I have advocated and former defense secretaries have as 
well that we would be well served to look at an increase in 
this. The overall account of the entire Department of Defense 
is somewhere just north of $100 million, and for SOUTHCOM, it 
is about $11 million. I think I could absorb $18 million, a 
modest increase. When you look at the kinds of monies we are 
spending in other areas, this is a low amount of money for a 
high dividend, high payoff. I would advocate that is an area we 
could expand.
    I am glad we are not like these others. I will not dignify 
by naming the names of the countries that come in and offer no-
strings-attached training. I am glad we have vetting and 
emphasize human rights. It is the right thing to do. It should 
be a high bar to go to our schools. We should get a return on 
investment from it. I think we do the right things with the way 
we screen and invest and look at the long-term return on 
investment for both our forces. That is an area I think we 
would do well to expand, Senator.
    Senator Ernst. Very good. Dollars well spent. Thank you 
very much, Admiral.
    Ranking Member Peters?
    Senator Peters. Thank you, Madam Chair.
    Again, Admiral Faller, thank you for being here. Admiral, 
we appreciate it.
    I think it is clear from the discussion that we had earlier 
in my office, as well as in your testimony that you provided 
here at the opening, is that you agree that corruption, lack of 
economic opportunity, violence, and really the failure of 
democratic governance in the Northern Triangle is a significant 
cause for some of the mass migration that we are seeing out of 
these countries, as well as the drug trade through these 
countries. Is that an accurate statement?
    Admiral Faller. Senator, the connection between weak 
governance, corruption, transnational criminal organizations, 
and then even the opportunity for China and Russia, as you 
articulated, is significant, and I consider that the number one 
security threat that we face here in this hemisphere because 
that same corruption breeds criminal activity, could breed 
terror activity, and certainly breeds the kind of dirty deals 
that other external state actors come in and thrive on.
    Senator Peters. In order to deal with that breakdown of the 
governance, it would probably make sense to have a whole-of-
government approach in dealing with it, and that means not just 
the military operations that you are engaged in but also NGO 
[non-governmental organization] activities that are working on 
civil society instructors. I know you have had experience 
working with some of the NGOs, particularly in the Northern 
Triangle. Are they helpful? Do you think that is part of the 
approach that we need to take in order to stabilize those 
countries?
    Admiral Faller. Strong institutions and strong defense 
institutions in these countries contribute to the whole-of-
government solution, and that is where we focus. We have a 
program called defense institution building which gets after 
that through our Perry Center here in Washington, DC. As that 
plays into a whole-of-government strategy across what we call 
the DIME, diplomacy, information, military, and economics, that 
is the best solution long-term. When we play into that with the 
private sector and NGOs, that is the best way to get the most 
lasting, resilient, long-term results, Senator.
    Senator Peters. You are saying programs like USAID, State 
Department programs, in those countries are critically 
important for us in our work to stabilize those areas and 
hopefully prevent migration and some of the drug trafficking 
that comes out of those countries?
    Admiral Faller. The integration of all elements of our 
power is key. I have a civilian deputy who is a full ambassador 
from the State Department. She has former USAID experience, 
Ambassador Ayalde, and we have a senior executive from USAID 
that sits to my immediate left at every meeting as one of my 
most senior reps so we can figure out how to best integrate it.
    Senator Peters. The Trump administration recently cut off 
all non-defense aid to the countries in the Northern Triangle, 
as I know you are aware of, Guatemala, Honduras, and El 
Salvador. Did the administration consult you as to whether or 
not that would make sense?
    Admiral Faller. The pressure that is being applied to these 
governments I would offer is good. The decision to cut off is a 
policy decision, and I am not normally part of policy 
decisions, Senator. But I advocated and articulated to the 
defense leadership the important contributions that 
professional militaries from Honduras, Guatemala, and El 
Salvador have made, particularly in the counternarcotics fight 
where their special forces are really getting after it in a way 
that is paying dividends for United States security. That is 
why we were able to continue our mil-to-mil engagement, 
Senator.
    Senator Peters. Admiral, the Leahy Law bars assistance to 
security forces who have committed gross human rights 
violations, as you are aware. Would it make sense to add 
corruption to the list that would cut off security assistance, 
particularly of corruption that enables drug and human 
trafficking?
    Admiral Faller. Senator, I do not know that I would have 
thought through enough how corruption might play in the Leahy 
Law. I think the Leahy Law is extremely effective. It is 
demanding, rightly so, and it produces units that we can trust 
and that we can look at and know are doing the right thing with 
respect to human rights.
    Senator Peters. Admiral Faller, in the ``Financial Times'' 
interview from June 26th, 2019, President Putin said that, 
quote, there are no Russian troops in Venezuela and 
characterized the personnel there as just specialists and 
instructors to train local forces. Yet, multiple press outlets 
have reported that paramilitary forces linked to the Wagner 
group deployed to Venezuela to provide security for President 
Maduro. These are the same forces, as I know you are very 
aware, that conducted missions on the Kremlin's behalf in 
Ukraine, Syria, and other countries across Africa.
    How would you characterize the actions of the Kremlin and 
Kremlin-linked forces in Venezuela? Is it just regular 
training, as Mr. Putin alleges, or is it something more 
nefarious?
    Admiral Faller. Senator, we have consistently seen the way 
Russia manipulates media around the world. At one point in 
February from my full Senate Armed Services Committee hearing, 
about a week before the hearing, I was here doing pre-hearing 
office calls, and I came out of Senator Rubio's office to the 
news that Russian state TV was reporting my presence on the 
Colombia-Venezuela border, including a picture of someone who 
was not me and B roll footage of tanks and planes poised to 
conduct an invasion. I think that sort of states Russia's 
approach overall to accuracy.
    There are Russian troops. There are Russian defense 
contractors. Their presence is in the hundreds. In Venezuela, 
they are supporting the Maduro regime. They are keeping Russian 
gear operable. They are conducting a full range of activities 
you would expect a foreign power to do to prop up their puppet 
regime.
    Senator Peters. Thank you, Admiral.
    Senator Ernst. Senator Hawley?
    Senator Hawley. Admiral, thank you for being here and thank 
you for your leadership.
    Is it fair to say that one key Russian and Chinese 
objective in the region is to reduce United States influence 
and access?
    Admiral Faller. Senator, I think it is. I would 
differentiate it slightly.
    I think for Russia that I would characterize it as almost a 
wounded bear wanting power. Their principal objective is to 
make the U.S. look bad at whatever turn they can and do 
anything that would blunt a U.S. advantage, even if that 
advantage is for the international good and the people, as it 
is in Venezuela.
    For China, they have legitimate economic interests around 
the world, and I know we are working hard as a nation to figure 
out how those legitimate international interests can actually 
be played using the rule of law. They have an economic interest 
primarily. But make no question that my research, my study, the 
56 ports that they are working on, the extensive IT 
[information technology] infrastructure, the extensive work 
they are doing in cyber, the space access that they are working 
on, all these things that would be characterized I think by 
Chinese state officials as soft power--they have hard aims. As 
I said in earlier testimony this year, they are setting the 
stage for future access and influence that would have clearly 
military dimensions.
    Senator Hawley. Just on this last point there about China 
with their ports, with their cyber, with their development, you 
see that as part of a larger strategic plan on China's part to 
ramp up their influence in the region and also to diminish 
ours. Is that fair to say?
    Admiral Faller. China has global aims that extend beyond 
economic, and I think we have got to continue to out-compete 
China globally, including in this neighborhood, this 
hemisphere.
    Senator Hawley. Thank you for that answer.
    Give us a sense of what you think in your judgment that 
looks like. What does it look for us to out-compete them, and 
what do we need to be doing to meet and turn back their 
strategic aims here?
    Admiral Faller. There are a lot of security challenges 
around the world, as have been outlined: North Korea, Iran, 
Russia and their near abroad, China, South China Sea. We have 
to make sure that we look at those globally, and we are as a 
department. We have to make sure that they are resourced 
globally and resourced to a sufficient level so that China does 
not come in and fill that vacuum when we are not there. At a 
point, you cannot do that and just be a schoolhouse in 
Carlisle, Pennsylvania and Newport, Rhode Island or Montgomery, 
Alabama, at any one of our excellent war colleges, or at 
Western Hemisphere Institute for Security at Fort Benning or 
here in the Perry Center in Washington. At a point, we have got 
to be in the region, be present. That means U.S. Navy ships, 
Coast Guard cutters, Marine special purpose MAGTF [Marine Air 
Ground Task Force] forces, special operations forces, small 
numbers. We have in some cases adequate numbers now, but if we 
took reductions--we might have to for the global fight--that 
would have a disproportionate impact I think in the long-term 
ability to work with our partners.
    Senator Hawley. Are there capability gaps that you have 
currently that you are concerned about that we should be doing 
something about?
    Admiral Faller. I am concerned. The littoral combat ship is 
an excellent platform the Navy is bringing online. It has had 
some growing pains. I am confident we are going to come out of 
those. The sergeant major and I spent several hours on a 
littoral combat ship in Mayport, Florida recently. It is a 
capability we need. We do not have it. The Navy is committed to 
deploying one in October. I will not give the name but a ship 
in October. We look forward to that. We do not have a Navy 
combatant now, and so that is a capability gap.
    Intelligence, surveillance, reconnaissance assets are 
challenged worldwide. We need those for monitoring the 
situation in Venezuela, also for the global counternarcotic 
fight, the crisis in this nation. That is our number one asset 
to detect that flow. We are short assets, yes, Senator.
    Senator Hawley. Thank you for that. That is very helpful.
    Let me ask you about our mil-to-mil contacts there, which 
you have already discussed some. They seem to be in your region 
relatively narrow focused and at the small unit level. I am 
just wondering. Do you feel that our training events with our 
partner nations are focused at the right level, and are they 
having the effect that you think they should be?
    Admiral Faller. We do focus at the unit level, and the 
basic blocking and tackling rightly starts there. But we also 
have some high end exercises with our very capable partners.
    So we just completed UNITAS, which is the longest serving 
maritime exercise that the United States has of 60 years. This 
was the 60th year. Our very capable Chilean partners led that 
and hosted it and were in command of that exercise. Twelve 
nations in that exercise from around the globe, observers from 
the UK [United Kingdom] and others and ships from Ecuador in a 
very capable high end exercise.
    At the same time, we had our Forces Commando, so 19 special 
operations forces, squads working together as a team in a 
competition also in Chile simultaneously operating.
    We do have high end exercises. I think there is more we 
could do to increase the level and complexity of those and 
bring more partners in, and that is one of the things we are 
focused on if there are additional resources for exercises.
    Senator Hawley. Can I ask just one more question, Madam 
Chair?
    The last question just on UNITAS, since you mentioned it, 
Admiral. I understand over 1,700 personnel participated, 12 
nations. Can you describe the degree of trust among the member 
nations, the participating nations, alignment of priorities, 
things you feel came out of this that you would report on to 
us?
    Admiral Faller. I attended the opening ceremony and had a 
chance to sit into the pre-sail brief in the hangar of a 
Chilean frigate and went down the line and met the lieutenant 
who was leading the diving salvage and the aggressor force of a 
03 lieutenant who was leading the opposition force, the 
commander of the Chilean sub who was going to go out and sink 
the high end American destroyer, the Michael Murphy, named 
after one of our Medal of Honor winners. You saw a band of 
brothers standing there on the flight deck. It would make any 
one of us proud. That is exercise money, train dollars that is 
well spent. That exercise covered everything from HADR [high 
availability disaster recovery] to response to a terrorist 
activity, and it was intense.
    Senator Hawley. Thank you.
    Thank you, Madam Chair.
    Senator Ernst. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Madam Chair.
    Thank you, Admiral Faller, for being here today.
    You mentioned the shortfall in the global counternarcotics 
effort, and as I am sure you are aware, the opioid crisis in 
the U.S. was responsible for more than 47,000 deaths in 2017. 
Much of those substances come in through Mexico. Heroin grown 
in South American countries, particularly Colombia, is 
trafficked to the United States by air and sea. It has a real 
impact on the entire country, as you know. In New Hampshire, we 
have the second highest opioid-related overdose deaths in the 
nation.
    Can you talk a little bit about what you are doing to 
coordinate with State governments and the U.S. on this effort?
    Admiral Faller. The drug crisis is a national security 
crisis, Senator. It is that easy to get drugs in and the other 
illicit commodities that can come along those same networks. It 
is a significant focus of ours.
    As I mentioned in a previous question, there are 
insufficient resources dedicated. We are working as hard as we 
can with the Coast Guard. It is a premier agency, and they are 
working hard. They have dedicated twice the number of cutters 
to the effort than what they commit in their annual global 
plan, which shows the level of commitment. Our Navy has stepped 
up to commit more.
    Joint Interagency Task Force South in Key West, as you 
know, is the premier center and, with about 1.5 percent of the 
budget, gets about 90 percent of the drugs headed into the 
country, cocaine which is principally coming from Colombia.
    We are working as hard as we can with our partners across 
the U.S. interagency, principally in the Joint Interagency Task 
Force South, and in the committees here in Washington, D.C. to 
look at ways to be more effective and to put more resources and 
intelligence and thought into the interdiction problem.
    It is also a supply problem and a demand problem. In that 
regard, I would have to say that Colombia has stepped up in a 
significant way, and while the statistics that you cite do not 
reflect that because of the time lag, what has been published 
and made public for 2018 since President Duque has taken over 
is a significant increase in eradication, manual eradication, a 
significant increase in Colombian partner interdiction, a 
significant increase in the Colombian forces' contact with the 
narcotraffickers and the terrorist groups that deal in this.
    Working with our partners, both in the United States 
interagency and our other host nation partners, 40 percent of 
our interdictions right now are by these partner nations that 
we train and work with in Colombia. I mentioned already the 
very capable forces of El Salvador, Honduras, and Guatemala. I 
would have to add in there Panama and Costa Rica have stepped 
up.
    But more can be done, and we are dedicated to that because 
there are still way too many drugs that are getting through and 
getting to this country, Senator.
    Senator Shaheen. Well, thank you very much.
    I want to switch subjects now. I am looking at a contract 
award document from the Defense Logistics Agency for February 
of 2018. One of the projects described here is for a 
contingency mass migration complex at Naval Station Guantanamo 
Bay, and it is a $23,164,000 fixed price contract for 
construction of that mass migration complex. It includes site 
shaping for tents, concrete pads for camp headquarters. It goes 
on to talk about mass notification system, various 
infrastructure requirements.
    Are you aware of this contract, and have you been part of 
any discussions about what that mass migration complex is going 
to be used for? Is it going to be used for movement of migrants 
from our southern border to Guantanamo Bay?
    Admiral Faller. Senator, one of our missions is to be able 
to handle any kind of mass migration event that is a SOUTHCOM 
mission. We have experienced that in the past with some 
migrants from Cuba and Haiti.
    Part of the naval station at Guantanamo Bay is an 
unimproved field that could be subject to any kind of weather 
conditions, mud. To get that field to a standard so if we had a 
mass migration, as I mentioned from Cuba or Haiti, we could 
keep the migrants on cement pads instead of in the mud and have 
power and water for sanitation ready to go. We did not 
currently have adequate facilities for the numbers that we 
would estimate in those worst kind of migrations.
    I have been down to look at the progress. I was there at 
the start of the work. Work is ongoing. We are supervising it.
    We also run an annual training drill. We actually send our 
Army South soldiers there to walk through the command and 
control and the interagency coordination that may be required. 
I am very much involved in the details. That is for a projected 
future mass migration event. There has been no discussion or no 
order given to me to prepare that site for any kind of 
southwest border flow.
    Senator Shaheen. Are you aware of any discussions that have 
been held that you may not have been given a direct order, but 
have you been part of--or do you know of any discussions that 
have been held to move southern border migrants there?
    Admiral Faller. No, Senator. Nobody has had a discussion 
with me to that effect.
    Senator Shaheen. Thank you.
    Senator Ernst. Senator Hirono?
    Senator Hirono. Thank you, Madam Chair.
    I would like to follow up on the questions that Senator 
Shaheen just asked.
    She referred to a $23 million----
    Senator Shaheen. It is over $23 million. It is almost $24 
million.
    Senator Hirono. Twenty-four million dollar contract to 
house people as a result of mass migration. What is that money 
for? Is it just what? I do not understand. Is it not going to 
go to put some buildings up in this field that you are talking 
about at Guantanamo Bay?
    Admiral Faller. Senator, we currently have a migration 
operation principally for Cuban migrants, and there are a small 
flow of migrants that come from Cuba----
    Senator Hirono. This money is for mass migration. I do not 
think we are talking about Cuba or Haiti.
    Admiral Faller. The current facilities are inadequate to 
hold any more than a few hundred. The worst case plans based on 
historical analysis or some kind of future event--it could be a 
weather-related event--would call for a larger infrastructure 
footprint that could hold into the tens of thousands. That is 
what that is based on. It is based on electrical 
infrastructure, sewage, water, power, concrete pads, some 
sanitation buildings. It is a very spartan camp, though, 
Senator.
    Senator Hirono. Admiral, are you saying that this money is 
not for the purposes of moving some of the migrants from the 
Northern Triangle countries to Guantanamo Bay?
    Admiral Faller. That is correct, Senator, not for.
    Senator Hirono. Any news reports that say that there is a 
potential for housing these people at Guantanamo Bay would be 
mistaken?
    Admiral Faller. I have seen the same news reports, Senator, 
but the program money and the project we are overseeing and the 
mission we have is for mass migration, not the southwest 
border.
    Senator Hirono. You have not gotten any order or there is 
no direct order, no discussion about sending people from the 
Northern Triangle to Guantanamo Bay. But if such an event 
occurs or such discussions occur, would you let this committee 
know?
    Admiral Faller. Senator, I assure you I would if there was 
a discussion or an order that I had in that respect.
    Senator Hirono. Okay, because of course with thousands and 
thousands of people coming from the Northern Triangle, our 
facilities are bursting at the seams and there is no question 
that there is an acknowledgement that some of our defense 
assets might be put to use to house these people. I think it is 
a matter of great concern for us.
    On page 1 of your testimony you talk about the impact of 
interstate competition with China and Russia, who are 
capitalizing on the instability within your AOR. China, as you 
know, is a primary threat in the Indo-Pacific AOR, but they 
are, of course, increasingly turning to other countries; they 
spread a wide net.
    What impact have China's activities on Southern Command had 
with your relationships with partner nations? Because, you 
know, China is very busy trying to insert themselves into 
having influence with our partner countries in that area. Is it 
making it harder for you to retain these important 
relationships with our partner countries?
    Admiral Faller. Our partners still want and view us as a 
partner of choice, and our schools, education, and everything 
is preferred.
    I think the challenge comes in if we do not have the speed, 
the quantity, or for some reason we are not there to be able to 
provide the partnership. From that respect, I will give you one 
example, Senator. I am having my third cup of tea with one of 
the leaders from a capable Caribbean partner nation. I do not 
start out asking about China. I start asking about the things 
that are mutual threats, how they perceive them. I have a lot 
to learn in my tour. But we get to China, whether they bring it 
up, I will bring it up. Then I will be blunt and ask what is 
China providing for you, and this particular chief of defense 
said they gifted me $23 million last year. I said, well, what 
did you do with it? Just $23 million. Here is cash. I looked at 
my security cooperation card, and I think my total sum of 
assistance was $1.5 million, which I thought was pretty 
adequate.
    We are not going to compete in volume. We have to compete 
in quality and speed of relevance. Sometimes that may be fast, 
sometimes slow based on what the partner needs.
    That does make it challenging, though. Twenty three million 
dollars. The chief of defense said, well, I did not buy any IT 
with that, Admiral. I am like, well, okay. But I mean, there 
are only so many uniforms you can buy for $23 million. You did 
something with it. I get it. It is hard to turn down cash. That 
is the challenge that we are competing with.
    Some of the partners are turning it down.
    Senator Hirono. One wonders for how long can they turn down 
what might be basically free money.
    Are China and Russia also involved in the Northern Triangle 
countries?
    Admiral Faller. It is different per country, and I try to 
always break them apart and go country by country. The previous 
leadership in El Salvador had a little different view about 
China and changed directions. I think the new leadership is 
much more pro-U.S. and really wanting to partner. I mentioned 
their chief of defense and minister of defense, and that is 
including both Russia and China. I see the same in Honduras and 
Guatemala. From a policy perspective, they stuck by Taiwan and 
the United States. Guatemala and Honduras have. I think it is 
different, but Russia and China are in there. They are trying 
to make inroads, and they will take every opportunity to move 
in if we are not.
    Senator Hirono. It sounds as though, with that kind of 
competition, your presence, whatever we can do to shore up our 
relationships is a constant thing for you. Keep doing it.
    Thank you, Madam Chair.
    Senator Ernst. Admiral, we will go ahead and do a second 
round of questioning. I think our members have additional 
questions they would love to hear your thoughts on.
    We talked a little bit about Argentina during your office 
call and some of the deep space tracking facilities that are 
there. If you could in an unclassified setting in this room, 
can you elaborate on the assessed purpose of that facility and 
the threat that it is posing to our military and to other 
assets that we have here?
    Admiral Faller. China is working in space around the globe 
and across all elements of space. I think our focus on space is 
exactly right because we have to stay ahead in this area. They 
are looking for access points. They have found them in South 
America, and Argentina is principally one. The extent to what 
China is doing and the degree of military activity at that site 
is extremely concerning to the security of the United States.
    Senator Ernst. Can you expound on what is the impact to the 
United States?
    Admiral Faller. China has the ability to have a more global 
view of all space activities, and that could run the gamut of 
offense and defense. Beyond that, we would have to go to a 
different setting, Senator.
    Senator Ernst. Absolutely. Thank you. I appreciate that.
    Outside of China and Russia--we spent a lot of time 
visiting about them. But Iran and Iranian proxies do have a 
long history in South America and in the western hemisphere. 
There was the 1994 bombing of a Jewish center in Argentina and 
the presence of Hezbollah-affiliated fund raising activities 
across the region.
    How would you characterize their presence in this 
hemisphere, and what are their primary objectives?
    Admiral Faller. Iran continues to be the number one state 
sponsor of terror around the world, and their long arm of 
malfeasance is everywhere. We have seen that recently in their 
attacks on tankers. They have at least two attributable terror 
attacks here in this hemisphere
    right here in Washington, D.C. where they attempted to kill 
the Saudi ambassador to the United States really within blocks 
of where we are sitting and their state-sponsored terror attack 
in Argentina. There are active connections between the Iranian 
regime and Lebanese Hezbollah fund raising activities 
throughout the region. We watch these closely. There is also 
Iranian sponsorship of Islamic centers with very dubious and 
questionable purposes throughout the hemisphere that has 
considerable ties to known terror activities in Iran. We keep 
our eye on this, and we work closely with our capable partners 
such as Brazil and Argentina to share information about these 
threats.
    Senator Ernst. In your estimation then, these elements that 
exist in this hemisphere--are they capable of hindering U.S. 
objectives?
    Admiral Faller. We have seen what Iran is doing day in and 
day out, Senator, in the Arabian Gulf, in Yemen, in Saudi 
Arabia, in the UAE [United Arab Emirates], what they have done 
here in the past. I do not put much stock in their good 
intentions going forward. I think we have got our eye on this 
one as best we can with the resources we have.
    Senator Ernst. Thank you, Admiral.
    I will yield back my time.
    Senator Peters?
    Senator Peters. Thank you, Madam Chair.
    I am going to pick up on a question that the chair asked 
you about the domains. You have talked about the space domain, 
but the other domain that we need to be focused on is cyber, in 
particular Chinese activities around the world in that area.
    Could you explain what the Chinese may or may not be doing 
in Latin America to expand their cyber capabilities?
    Admiral Faller. Start with the crisis in Venezuela. The 
Maduro-made crisis there, which now pushed out over 4 million 
migrants--unfortunately, it is affecting their region--is being 
aided, abetted by Russia, Cuba, and to a lesser extent but a 
significant one, China. As I mentioned in my opening statement, 
China is also involved in enabling cyber for the Maduro regime.
    We look broadly beyond that. The attractiveness of IT 
infrastructure and the safe city/smart city concept where IT 
infrastructure can provide surveillance opportunities for 
security forces is being actively pursued by a number of 
important partners in the region. We have been very actively 
involved with our interagency partners to explain the risks, 
and on a mil-to-mil and security force level, the partners get 
it. They have been able, in some cases, to articulate to their 
leadership to slow or stop some projects.
    But they turn to us and say what is our alternative. Just 
like was mentioned about the money, Senator Hirono mentioned at 
some point you do need resources. They all say, hey, we need IT 
infrastructure. What is the alternative that will come forward 
that we can provide?
    On a mil-to-mil level, we are working on some important 
security cooperation packages with CYBERCOM [U.S. Cyber 
Command], some of our first-ever security cooperation packages 
with partners that want to do more in this area. We have made 
some visits to do some assessments, and with the support of 
Congress, we are going to come forward with some 333 packages 
that will do training, education, and cyber infrastructure in a 
mil-to-mil realm. They are the first ones ever we are pushing 
with a couple of our very capable partners.
    That has got to be our response, and that is another reason 
why we need to--when I talk more broadly about being there and 
being consistent, that is one of the areas we are going to look 
moving forward and that will help both of us on cyber defense. 
But China is there in a big way, Senator.
    Senator Peters. China uses cyber not just to deal with 
security issues, surveillance issues to prevent crime, but also 
to keep track of their population and, some would argue, to 
manipulate the population and get them more compliant with the 
regime.
    Do you believe Latin American governments are also moving 
in that direction with the assistance of the Chinese?
    Admiral Faller. Senator, when I talk to our partners about 
the United States versus China, I said, look, I am not here to 
bash China. I am not here to even ask you to make a choice. I 
am here to talk about what is important to you and what is 
important to us, and I think I know where you come from where 
you honor and respect democracy, rule of law, human rights, and 
sovereignty. I look at those sort of four representative 
variables. I said I look at the competition that you might do 
business with, these other external state actors, and I know 
where we stand. We are not the perfect people, but we work 
really hard at being good in this country and particularly in 
our military. We make mistakes, but they are usually honest 
mistakes. I know where we stand on those four variables. I also 
know where the competition stands on those four variables. When 
you buy into a product, are you prepared to buy what might come 
with it, what kind of rule of law, what kind of respect for 
human rights?
    I do not see currently an indication that people are buying 
into that in a way that is corrupting them or causing them to 
stray from their commitment to us and their commitment to 
professionalism. On a mil-to-mil level, I do not. But it 
concerns me when you look long-term, when you leverage 
yourself, and you look down the list, democracy, human rights, 
rule of law.
    Senator Peters. Thank you, Admiral.
    Senator Ernst. Senator Shaheen?
    Senator Shaheen. Thank you.
    Admiral, as I am sure you are aware, in 2017 President 
Trump signed into law the Women, Peace, and Security Act, which 
mandates that we prioritize the inclusion of women in conflict 
negotiations and security structures and in peace negotiations.
    Can you talk about how SOUTHCOM is implementing that law 
and how you see it helping you to accomplish your mission?
    Admiral Faller. Master Chief Stacey Arin is my gender 
advisor, sort of the alter ego to the command sergeant major 
here. She was at our full Senate hearing. She is out actually 
on a field trip working on this.
    When we look at professionalism, what it takes to be a 
professional force, I think that is principally why people want 
to partner is we are professional. Professional forces are 
legitimate. Professional forces respect human rights, rule of 
law. They also respect talent and allowing equal opportunity to 
come in and compete irrespective of who you are, what you do, 
and whether you are a female or a male. That is what our 
approach is and how we talk about it.
    My commanders conferences that I have--we have a big one 
coming up in August in Brazil for all the South American 
countries. That will be a focus point of the discussion with 
our counterparts and how they work that and how we work with 
them. We have actually had requests from some of our partners 
to say how did you, the United States, work through the 
integration of putting women on the team on combat ships at 
sea. That is one of the projects we are taking on with one of 
our partner nations right now. They are receptive to it.
    We appreciate the act because it came with resources that 
help us to sponsor training courses. We hosted the first course 
where we are training the trainers. We had all the combatant 
commands at SOUTHCOM, and I kicked the course off. It was the 
afternoon of my first day in command actually. We are looking 
to kind of move this forward in practical ways that deliver 
combat capability. I actually think it does--I know it does--
deliver combat capability.
    Senator Shaheen. Well, I think it is also important to 
point out that there is a growing body of evidence that shows 
what a difference it makes to have women at the table in 
conflict resolution and peace negotiations where we know if 
women are part of those negotiations, they are more than 30 
percent likely to last for longer than 15 years. I think for 
all kinds of reasons, including the ones that you cite, it is 
very important for us to see this law implemented. Thank you 
very much.
    Thank you, Madam Chair.
    Senator Ernst. Senator Hirono?
    Senator Hirono. Thank you.
    Admiral, the Joint Interagency Task Force South helps 
detect, monitor, and stop drug trafficking. Last year, only 6 
percent of known drug movements were interdicted.
    Can you clarify for me? You mentioned it in your response 
to one of the questions that 40 percent of interdictions are by 
our partner countries. That is 40 percent of the 6 percent of 
the drugs that are interdicted?
    When President Trump declared a national emergency to fund 
his border wall, he announced he would pull $2.5 million from 
the Department of Defense's drug interdiction program. That is 
the program that we are talking about.
    How are the funds in this drug interdiction program used to 
address drug trafficking? If these funds are diverted to build 
a border wall, how would this impact your ability to complete 
your drug interdiction efforts?
    Admiral Faller. Senator, the Joint Interagency Task Force 
South, as you mentioned, currently led by a Coast Guard two-
star, is key to this effort, and they are doing a great job 
with about 1.5 percent of the overall counternarcotics funds 
for the entire United States Government to get about 90 percent 
of all the cocaine. Still, it is not enough. As you cite, 6 
percent.
    The policy decision on how the border security is done is 
not something that I am involved in. We have not had any cut in 
our funding for the counternarcotic fight. However that money 
is flowed, we have received the money that we have needed and 
do need to fight the fight that we are in. We do need more 
assets. That does cost money. But the principal problem that we 
face has not been a shortage of the counternarcotics money. We 
appreciate Congress' support in that. Thank you.
    Senator Hirono. Clarify for me that this $2.5 million--you 
are not going to miss it if it goes away?
    Admiral Faller. If it went away, if we lost the money from 
our counternarcotics fund, we would miss it. I guess it was a 
long answer to we have not had a cut in our counternarcotics 
funding.
    Senator Hirono. Well, it may happen the way things are 
going.
    Considering that, since the President is talking about 
diverting this money for a wall which, by the way, is not going 
to help in terms of your drug interdiction efforts because most 
of your drugs come through the regular ports of entry, not 
where a wall will be.
    You noted in your testimony on page 2 that this area, your 
AOR, is the largest source of illicit drugs and illegal 
migrants to the United States. You note further on that you are 
working with your partners to address shared challenges and 
threats in this area, including weak governance, corruption, 
transnational criminal organizations, and the flow of illicit 
drugs. You say that you are looking forward to discussing the 
nature of this activity in detail and how you are working with 
the partners to address these issues.
    Can you give me an example of how you are working with your 
partners to go after all of these, the weak governance, 
corruption, and, you know, all the litany of bad things?
    Admiral Faller. It is a team effort, and it is a big list, 
Senator, as you point out. Our principal partner within the 
Department of Defense is our NORTHCOM [U.S. Northern Command]. 
General O'Shaughnessy and I are in constant communication about 
how we ensure there is no seam between the Guatemalan-Mexican 
border and how we view and track these challenges.
    At its heart, these are intelligence-driven challenges. 
What are the drivers of the migration? What are the key 
criminal organizations that are involved in the illicit 
trafficking, whether it is people, arms, drugs that prey on the 
weak governance? Sharing intelligence with our partners, 
building their capacity to understand their own environment, 
and then taking that intelligence and building into packages 
that we pass to partner nations' law enforcement and our own 
law enforcement is key because most of these challenges involve 
action by other government entities working very closely with 
Homeland Security to pass information that we know when we know 
it about migrant caravans or illicit drugs.
    Senator Hirono. Really, Admiral, to make an impact, you 
have to have a long-term commitment to addressing these issues, 
corruption, as I said, the entire litany. It does not help when 
you have $450 million that is taken away from particularly the 
Northern Triangle countries. It does not help. I think you have 
to kind of acknowledge that.
    Thank you, Madam Chair.
    Senator Ernst. Thank you.
    I appreciate the subcommittee's participation in today's 
activities.
    Admiral Faller, thank you very much for being here and 
representing our men and women of SOUTHCOM so aptly. We truly 
do appreciate your service to our nation.
    Thank you, Sergeant Major Zickefoose, for being here as 
well.
    To you and your team, we appreciate the great input that 
you have provided for all of us.
    With that, this hearing is closed.
    [Whereupon, at 4:03 p.m., the committee adjourned.]

                                 <all>
</pre></body></html>
